SEC’s Controls Over Sensitive/Nonpublic
Information Collected and Exchanged With the
Financial Stability Oversight Council and
Office of Financial Research




                                           March 25, 2013
                                           Report No. 509


                 REDACTED PUBLIC VERSION
                                               UNIT E D S T ATE S
                            SECURITIES AND E X CH A NGE COMMISSION
                                         WAS HIN G T O N , D .C.   20549


    OFFICE OF
INSPECTOFt GENERAL




                                        MEMORANDUM
                                               March 25, 2013

           To:           Elisse B. Walter, Chairman
                         Thomas A. Bayer, Director/Chief Information Officer, Office of
                          Information Technology
                         Vance Cathell, irector, Office of Acquisitions

           From:         cfil{(.{ff   ec er, Inspector General, Office of Inspector General

           Subject:      SEC's Controls Over Sensitive/Nonpublic Information Collected and
                         Exchanged with the Financial Stability Oversight Council and Office
                         of Financial Research, Report No. 509

           This memorandum transmits the U.S. Securities and Exchange Commission
           Office of Inspector General's (OIG) final report detailing the results of our audit of
           the SEC's Controls Over Sensitive/Nonpublic Information Collected and
           Exchanged with the Financial Oversight Council and the Office of Financial
           Research. The audit was conducted as part of our continuous effort to assess
           the Commission's programs and operations.

           This report contains five recommendations which if fully implemented should
           strengthen the SEC's controls over sensitive and nonpublic information that is
           collected and exchanged with Financial Oversight Council and Office of Financial
           Research. The Chairman's office, Office of Information Technology, and Office
           of Acquisitions concurred with all recommendations pertaining to their respective
           offices. Your written responses to the draft report's recommendations are
           included in Appendix V .

           Within the next 45 days, please provide OIG with a written corrective action plan
           that addresses the recommendations to your office. The corrective action plan
           should include information such as the responsible official/point of contact,
           timeframes for completing required actions, and milestones identifying how the
           recommendations will be addressed.




        SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR           March 25, 2013
        Report No. 509
                                                    Page i

                                      REDACTED PUBLIC VERSION
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation you and your staff
extended to our office.

Attachment

cc:	   Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel M. Gallagher, Commissioner
       Sara Cortes, Senior Advisor to the Chairman, Office of the Chairman
       Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
       Pamela C. Dyson, Deputy Director/Deputy CIO, Office of Information
         Technology
       Todd K. Scharf, Associate Director, Chief Information Security Officer,
         Office of Information Technology




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR    March 25, 2013
Report No. 509
                                        Page ii

                          REDACTED PUBLIC VERSION
SEC’s Controls Over Sensitive/Nonpublic
Information Collected and Exchanged With
the Financial Stability Oversight Council and
Office of Financial Research

                                     Executive Summary
Background. The Financial Stability Oversight Council (FSOC) was created by
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank
Act) and is charged with identifying threats to the financial stability of the United
States, promoting market discipline, and responding to emerging risks that could
impact the stability of the nation’s financial system. 1 The Dodd-Frank Act also
created the Council of Inspectors General on Financial Oversight (CIGFO).

CIGFO was established to facilitate information sharing among the Office of
Inspector Generals (OIG), to provide a forum for discussing work as it relates to
the broader financial sector, and provide oversight of the FSOC.

On April 15, 2011, the Memorandum of Understanding Regarding the Treatment
of Non-public Information Shared Among Parties Pursuant to the Dodd-Frank-
Wall Street Reform and Consumer Protection Act (MOU) became effective. The
MOU sets forth the parties’ understanding with respect to the treatment of non-
public information that is obtained or shared among the parties in connection with
or related to the functions and activities of FSOC or the Office of Financial
Research (OFR). The OFR was also created by the Dodd-Frank Act and has a
mission to improve the quality of financial data that is available to policymakers
and facilitate a robust and sophisticated analysis of the financial systems.

On December 8, 2011, the CIGFO committee approved the establishment of a
CIGFO working group (working group) that was composed of staff from the nine
OIG’s that comprise CIGFO, whose objectives were to examine the controls and
protocols that FSOC and its member agencies employed to ensure FSOC
nonpublic information, deliberations, and decisions are properly safeguarded
from unauthorized disclosure. That working group conducted a joint audit and
reported the results in Audit of the Financial Stability Oversight Council’s Controls
over Non-public Information. The SEC OIG conducted this audit to follow up on
deficiencies identified in the joint working group’s audit.



1
    The United States is also referred to as “nation.”
SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR       March 25, 2013
Report No. 509
                                                         Page iii

                                     REDACTED PUBLIC VERSION
Objectives. To examine the controls and protocols the SEC employs to ensure
that sensitive and nonpublic information it collects and exchanges with FSOC, its
member agencies and OFR, is properly safeguarded from unauthorized
disclosure.

Results. Our audit found that SEC employees and contractors who access the
SEC’s e-mail system using Outlook Web Access (OWA) are not restricted from
saving and uploading sensitive or nonpublic information on non-SEC computers.
Consequently, sensitive or nonpublic information could potentially be disclosed to
unauthorized persons.

Also, the SEC has not appointed primary information owners to oversee
information it receives and shares with FSOC, its member agencies, or OFR. In
addition, a protocol for inventorying and ensuring documents are appropriately
marked has not been fully developed. As a result, the SEC may be unable to
efficiently identify information owners and ensure documents are tracked and
marked as appropriate.

Finally, new contractors are not required to take the on-line Security Awareness
training on handling sensitive or nonpublic SEC information for up to 30 days
after they are approved to work at the SEC and have a network user account.
Thus, contractors could unintentionally mishandle or disclose sensitive or
nonpublic SEC information. Therefore, new contractors should be required to
read and sign the “Rules of the Road” which covers handling nonpublic or
sensitive information, prior to being granted access to a network user account.
Doing so will aid in the contractor being aware of how to properly handle
sensitive or nonpublic SEC information.

Summary of Recommendations. This report contains five recommendations
that were designed to improve the SEC’s controls over sensitive and nonpublic
documents it collects or exchanges with FSOC and OFR. Specifically, we
recommended the Office of Information Technology (OIT) develop controls to
prevent remote users from saving files accessed using Outlook Web Access to
public computers.

Further, the Office of the Chairman should work with OIT to: (1) assign points of
contact to serve as information owners, (2) develop a system to identify and track
sensitive and nonpublic documents, and (3) devise procedures information
owners should use to mark documents according to the sensitivity level, for all
sensitive and nonpublic documents that are either provided to, or are received
from FSOC or OFR.




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR   March 25, 2013
Report No. 509
                                        Page iv

                          REDACTED PUBLIC VERSION
Finally, the Office of Acquisitions should work with OIT to ensure new contractors
are provided with the Rules of the Road to read and sign before they are given
access to the SEC’s systems.

Management’s Response to the Report’s Recommendations. OIG provided
SEC management with the formal draft report on March 13, 2013. SEC
management concurred with all recommendations in this report. OIG considers
the report recommendations resolved. However, the recommendations will
remain open until documentation is provided to OIG that supports each
recommendation has been fully implemented. SEC management’s response to
each recommendation and OIG’s analysis of their responses are presented after
each recommendation in the body of this report.

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                        Page v

                          REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii


Table of Contents ........................................................................................................vii


Background and Objective .................................................................................... 1

     Background ....................................................................................................... 1

     Objective ............................................................................................................ 3


Findings and Recommendations .......................................................................... 4


         Finding 1: Lack of Remote Access Controls May Put Sensitive and 

         Nonpublic Information at Risk of Unauthorized Disclosure ................................ 4

                      Recommendation 1....................................................................... 7


         Finding 2: The SEC’s Protocol For Inventorying, Tracking, and Marking

         Information Collected by and Exchanged With FSOC, its Member 

         Agencies, and OFR Needs Improvement ........................................................... 7

                      Recommendation 2..................................................................... 10

                      Recommendation 3..................................................................... 10

                      Recommendation 4..................................................................... 11


         Finding 3: New Contractors Are Not Provided Training on Handling

         Sensitive and Nonpublic Information in a Timely Manner ............................... 11

                      Recommendation 5..................................................................... 13


Appendices

    Appendix I: Abbreviations and Definitions. ...................................................... 14

    Appendix II: Scope and Methodology .............................................................. 15

    Appendix III: Criteria ........................................................................................ 17

    Appendix IV: List of Recommendations .......................................................... 18

    Appendix V: Management Comments............................................................. 19


Tables
     Table1: Remote Operation Utilities Available at the SEC ................................... 5





SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                                 March 25, 2013

Report No. 509

                                                     Page vii


                                   REDACTED PUBLIC VERSION
                    Background and Objectives


Background
The Financial Stability Oversight Council (FSOC) was created by Dodd-Frank
Wall Street Reform and Consumer Protection Act (Dodd-Frank Act) and is
charged with identifying threats to the financial stability of the United States
(U.S.), promoting market discipline, and responding to emerging risks that could
impact the stability of the nation’s financial system. 2

Among other significant provisions, Dodd-Frank Act created the Council of
Inspectors General on Financial Oversight (CIGFO). CIGFO includes Inspectors
General from the following nine major Federal government financial entities:

    (1) Board of Governors of the Federal Reserve System.
    (2) Commodity Futures Trading Commission.
    (3) Department of Housing and Urban Development.
    (4) Department of the Treasury.
    (5) Federal Deposit Insurance Corporation (FDIC).
    (6) Federal Housing Finance Agency.
    (7) National Credit Union Administration.
    (8) Securities and Exchange Commission (SEC or Commission).
    (9) Special Inspector General for the Troubled Asset Relief Program.

CIGFO was established to:

    (1) facilitate information sharing among the Office of Inspector

        Generals (OIG);

    (2) provide a forum for discussing work as it relates to the broader

        financial sector; and 

    (3) provide oversight of the FSOC.

On April 15, 2011, the Memorandum of Understanding Regarding the Treatment
of Non-public Information Shared Among Parties Pursuant to the Dodd-Frank-
Wall Street Reform and Consumer Protection Act (MOU) became effective. The
MOU was signed by SEC and 15 designated parties, 3 to include other federal
financial regulatory agencies. 4 The MOU sets forth the parties’ understanding

2
  The United States is also referred to as “nation.”

3
  Designated “Parties” are also referred to as member agencies. These “Parties” are comprised of the 

Office of Financial Research (OFR), FSOC, and, and its member agencies. 

4
  Financial regulatory agencies are also referred to as financial entities in the MOU.

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                        March 25, 2013
Report No. 509
                                                Page 1

                                REDACTED PUBLIC VERSION
with respect to the treatment of nonpublic information that is obtained or shared
among the parties in connection with, or related to the functions and activities of
FSOC or the Office of Financial Research (OFR). 5 The OFR was established by
the Dodd-Frank Wall Street Reform and Consumer Protection Act. Its mission is
to improve the quality of financial data that is available to policymakers and to
facilitate a robust and sophisticated analysis of the financial systems.

The MOU defines nonpublic information as:

        any data, information, or reports submitted, received or shared
        among the Parties in connection with or related to the functions and
        activities of the FSOC or the Office of Financial Research. 6

Also, the MOU provides the terms and agreements as determined by the signing
parties. The MOU parties agreed not to disclose information that is shared
between the parties without first receiving written consent from the providing
party.

The SEC defines nonpublic information as:

        information generated by or in the possession of the SEC that is
        commercially valuable, market sensitive, proprietary, related to an
        enforcement or examination matter, subject to privilege, or
        otherwise deemed nonpublic by a division director or office head,
        and not otherwise available to the public. This policy applies to
        nonpublic information in any form including documents, electronic
        mail, computer files, conversations, and audio or video recordings. 7

On December 8, 2011, the CIGFO Committee approved the establishment of a
CIGFO working group (working group) composed of staff from the nine OIG’s
that comprise CIGFO, whose objectives were to examine the controls and
protocols that FSOC and its member agencies employed to ensure FSOC
nonpublic information, deliberations, and decisions are properly safeguarded
from unauthorized disclosure. To accomplish its objective, the working group
conducted a joint audit of the major federal government financial entity’s
business practices related to the industry standards and practices that are
established in the National Institute of Technology (NIST) special publications. 8
Specifically, in March 2012, the working group members conducted an audit of
their respective agency’s management and internal controls over sensitive and

5
  The MOU was effective on April 15, 2011, and the SEC signed it on May 2, 2011.
6
  Memorandum of Understanding Regarding the Treatment of Non-public Information Shared Among Parties

Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act, effective April 15, 2011, p. 1.

7
  SECR 23-2a, Security-Safeguarding Non-Public Information, January 21, 2000, p. 1.

8
  The National Institute of Technology (NIST) Special Publications consist of a series of reports on NIST

research, guidelines, and outreach efforts in information system security.

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                        March 25, 2013
Report No. 509
                                                Page 2

                                REDACTED PUBLIC VERSION
proprietary (non-public) information that was collected by and exchanged with
FSOC, its member agencies, and OFR. The audit was spearheaded by FDIC
OIG, who met regularly with working group members. Working group members
used a standardized audit program to ensure audit steps and testing among
OIG’s was consistent.

Findings for the joint audit were incorporated into a consolidated report, Audit of
the Financial Stability Oversight Council’s Controls over Non-public Information,
which was issued on June 22, 2012, to the Chairman of FSOC. While the report
did not make any recommendations, it identified differences in how FSOC and its
member agencies’ mark nonpublic information. For example, nonpublic
information marked as “sensitive” in one agency is marked as “restricted” in
another agency. In addition, the report identified control differences in how non-
public information is handled in areas related to oral communication,
supplemental prohibition on financial interest, contractor confidentiality and
nondisclosure, encryption, and protocol for tracking information exchange. 9

Purpose. OIG conducted this audit to follow up with the deficiencies we
identified during the joint audit. Specifically, our purpose was to further assess
the SEC’s controls over sensitive and nonpublic information that is collected by
and exchanged with FSOC, its member agencies and OFR, and determine
adherence to the MOU requirements for handling sensitive and non-public
information. 10 Our audit did include inquiries regarding unauthorized disclosure
of sensitive or nonpublic information.

Objective
To examine the controls and protocols the SEC employs to ensure that sensitive
and nonpublic information it collects and exchanges with FSOC, its member
agencies and OFR, is properly safeguarded from unauthorized disclosure.




9
  Audit of the Financial Stability Oversight Council’s Controls over Non-public Information, Report to the
Financial Stability Oversight Council and the Congress, June 22, 2012, p. 9.
10
   OIT defines sensitive as “Information about a company or individual that has been collected by the SEC
but is not for public disclosure. In general, all such data, which are categorized as either “Non-Public (SEC
Restricted)” or “Non-Public (SEC Use Only),” shall be masked.”
SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                            March 25, 2013
Report No. 509
                                                  Page 3

                                 REDACTED PUBLIC VERSION
               Findings and Recommendations


Finding 1: Lack of Remote Access Controls May
Put Sensitive and Nonpublic Information at Risk
of Unauthorized Disclosure
         SEC employees and contractors accessing SEC’s e-mail
         system using Outlook Web Access (OWA) are not restricted
         from saving and uploading sensitive or nonpublic information
         on non-SEC computers. Consequently, sensitive or non-
         public information could potentially be disclosed to
         unauthorized persons. 11

The Office of Information Technology’s (OIT) has issued policy prohibiting SEC
network users (employees and contractors) from saving or uploading sensitive or
nonpublic information onto non-SEC computers, unless the computer is equipped
with SEC-approved remote operation utilities. Currently, the SEC does not have
any controls that restrict or prevent employees and contractors who use OWA
from uploading or saving information which includes sensitive/nonpublic, to a
non-SEC computer. The onus is on SEC network users to comply with OIT’s
policy.

OIT’s Rules of the Road, Rule #7: Don’t Transmit Non-public or Sensitive
Information over Non-secure Systems states, 12

         Users of the SEC network and automated systems must also
         understand that sensitive or nonpublic information may NOT
         be processed on non-SEC workstations unless such
         workstations are equipped with SEC-approved remote
         operation utilities, such as     software.

In addition, OIT’s Implementing Instruction 24-04.02.01(01.0) Sensitive Data
Protection, issued April 6, 2006 states,

         The SEC may take appropriate action to ensure that

         unauthorized individuals cannot read, copy, alter, or steal

         printed or electronic SEC sensitive information. 13


11
   SEC personnel include employees, detailees, and interns and are referred to as “SEC staff.”

12
   The Rules of the Road apply to all SEC staff and contractors.

13
   Implementing Instruction 24-04.02.01(01.0) Sensitive Data Protection, Section 5.d(5), April 6, 2006.

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                           March 25, 2013
Report No. 509
                                                  Page 4

                                 REDACTED PUBLIC VERSION
Currently, the Commission allows employees and contractors who handle
sensitive and nonpublic information to work at offsite locations using non-SEC
computers to access the SEC’s network. This is done using approved, secured
remote operation utilities such as OWA, SEC’s remote electronic terminals portal
        , Virtual Private Network (VPN), or the
           Full descriptions of these remote operation utilities are identified below
in Table 1. Employees and contractors can use these utilities to connect to the
agency’s network from a SEC-issued desktop/laptop or using a non-SEC
computer such as a public, company-owned, or personal desktop/laptop.

        Table 1: Remote Operation Utilities Available at the SEC
             Remote                                      Description
            Operation
             Utilities
         Outlook Web           A web-based application that allows users to check e-mail
         Access                from both SEC-issued and non-SEC issued computers.




         VPN                   A remote access solution that offers a secure solution to
                               access SEC e-mail, network drives, and applications using
                               a SEC-issued computer.



       Source: OIG Generated.

SEC-issued computers are equipped with remote operation utilities and are
configured to meet OIT’s defined baseline security requirements. Also, they
have parameters that are designed to protect data that is saved on the computer
from unauthorized disclosure. These computers have controls and protections
(baseline security requirements) such as, anti-virus, anti-malware, firewalls,
intrusion detection, and hard disk encryption that aids in preventing unauthorized
access to SEC data.

In contrast, non-SEC computers which include public computers, are configured
to meet the computer owner’s requirements, which likely do not meet OIT’s
defined baseline security requirements for protecting SEC data. Consequently,
these computers may not have adequate controls and protections (e.g.,
encryption, anti-virus, anti-spyware) to prevent unauthorized access of nonpublic
SEC information or the information from being disclosed to unauthorized
persons.
14
   The Commission employs four remote operation utilities that provide similar, but somewhat different
attributes. These remote operation utilities serve as alternatives solutions SEC personnel can use to access
the SEC’s network in the event one of the four solutions becomes unstable or is inoperable.
SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                          March 25, 2013
Report No. 509
                                                 Page 5

                                REDACTED PUBLIC VERSION
Employees and contractors can remotely connect onto the SEC’s network via
SEC-issued computers by using OWA,              , or VPN. Also, they can remotely
connect to the network via non-SEC computers by using OWA,
                  allow staff using a non-SEC computer to save and upload files
directly to the SEC’s network, but the files cannot be uploaded and saved to the
computer. Conversely, agency network users who remotely access their e-mail
via a non-SEC computer using OWA can save and upload e-mails and
attachments, which could include sensitive or nonpublic information, to the non-
SEC computer.

OWA does not have controls to prevent users accessing the agency’s network
from non-SEC computers from saving and uploading information onto a non-SEC
computer. As a result, sensitive or nonpublic information could potentially be
saved to a non-SEC computer. Therefore, there is a risk that an unauthorized
person could gain access to sensitive or nonpublic SEC information if the user
saved files that were obtained using OWA onto a non-SEC computer.

Though the SEC has policies and procedures regarding handling and
safeguarding sensitive/nonpublic information and requires staff to attend annual
security awareness training, this information could potentially be disclosed
because SEC employees and contractors have the ability to save and upload
documents onto non-SEC computers when using OWA. For example, if a user
remotely accesses the SEC network using OWA from a hotel computer and
downloads sensitive information or nonpublic from their e-mail to the hotel’s
computer and does not remove or delete it from the hotel computer, the file can
be accessed by subsequent users. Therefore, there is a risk that sensitive or
nonpublic SEC information can potentially be seen, read, copied, altered, printed,
or stolen by unauthorized persons.

Conclusion. The ability for SEC personnel who access SEC e-mails using OWA
to save and upload information onto non-SEC computers is an internal control
weakness that should be further reviewed to assess risk to the Commission.
Implementing Instruction 24-04.02.01 (01.0) requires that appropriate action is
taken to ensure “unauthorized individuals cannot read, copy, alter, print, or steal
electronic SEC sensitive information.”15 However, by not having a control in
place that restricts or prevents SEC personnel using OWA from saving or
uploading documents onto a non-SEC computer, sensitive or non-public
information could potentially be disclosed to unauthorized persons. OIT should
ensure controls are developed for OWA users that are consistent with
                that disallow files from being uploaded and saved onto non-SEC
computers.

15
     Implementing Instruction 24-04.02.01(01.0) Sensitive Data Protection, Section 5.d(5), April 6, 2006.
SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                             March 25, 2013
Report No. 509
                                                    Page 6

                                   REDACTED PUBLIC VERSION
       Recommendation 1:

       The Office of Information Technology should develop controls that prevent
       remote users from saving files accessed using Outlook Web Access to
       public computers.

       Management Comments. OIT concurred with this recommendation.
       See Appendix V for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation. OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to OIG that supports it has been fully implemented.


Finding 2: The SEC’s Protocol for Inventorying,
Tracking, and Marking Information Collected by
and Exchanged with FSOC, its Member Agencies,
and OFR Needs Improvement
       The SEC has not appointed a primary information owner to
       oversee information it receives and shares with FSOC, its
       member agencies, or OFR. In addition, a protocol for
       inventorying and ensuring that information is appropriately
       marked has not been fully developed. As a result, the SEC
       may be unable to readily identify information owners and
       ensure documents are tracked and marked as appropriate.

The SEC does not have any primary points of contact (POC) to oversee sensitive
and nonpublic information that is requested, provided, or received to/from its
parties to the FSOC MOU. Additionally, the SEC has not fully developed a
protocol for inventorying, tracking, and ensuring that sensitive/nonpublic
information that is shared among the FSOC, its member agencies, and the OFR
is appropriately marked for classification purposes and to assure the
confidentiality of the information is maintained in accordance with the MOUs
terms. OIG was informed the SEC exchanges sensitive or nonpublic information
with FSOC using a secured e-mail portal.

The Commission’s policy for handling and marking sensitive information that is
obtained from third parties. Specifically, the policy II 24-04.02.01 (01.0) states,



SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR       March 25, 2013
Report No. 509
                                        Page 7

                          REDACTED PUBLIC VERSION
         …all ‘Non-Public (SEC Restricted)’ or ‘Non-Public (SEC Use Only)’
         must be labeled in accordance with the SEC’s guidance for labeling
         or marking, handling, and safeguarding such information as
         provided in SECR 23-2a. 16 In the course of normal business
         activities, the SEC often takes possession of third-party unclassified
         sensitive information. Whenever a non-disclosure agreement
         (NDA) has been signed, an internal SEC information owner should
         be assigned for information so received. …This third-party
         information must be labeled with the appropriate data category and
         treated as though it was ‘Non-Public (SEC Restricted)’ or ‘Non-
         Public (SEC Use Only)’ internal information with the same security
         categorization. 17

         …sensitive information [to] be marked as appropriate by the
         primary information user. Internal/External labeling is required for
         all sensitive material and may be in the form of special handling
         instructions, classification, or control logging information such as
         serial/controls numbers or bar codes. 18

To ensure full compliance with its MOU with FSOC, the SEC must be able to
track the information it receives and exchanges with the MOU parties. While
SEC policy requires information owners are assigned to receive information from
third parties, the SEC has not designated a primary person or persons to serve in
this capacity for FSOC purposes. Although a primary POC has not been
designated, Commission employees who have collected or have exchanged data
with FSOC, member agencies or OFR, have individually assumed responsibility
for sensitive/non-public data. The current process lacks sufficient controls and
accountability for tracking who has accessed, collected, or exchanged data with
FSOC. 19

Our audit also found that the SEC does not have a formal protocol or procedures
related to the FSOC's function to inventory, track, and ensure sensitive and non-
public information that is shared or received with FSOC, its member agencies,
and OFR is appropriately marked for classification purposes. SEC information
owners informed us they primarily rely on the secured e-mail portal to inventory
and track information, but do not readily “mark” the data they receive from the
FSOC, its member agencies, or OFR. Hence, the email portal only provides an

16
   SECR 23-2a is an SEC Administrative Regulation entitled Security: Safeguarding Non-Public Information

(January 21, 2000) establishes general policies and procedures that are designed to enhance the 

management controls for safeguarding non-public information.

17
   II 24-04.02.01, Sensitive Data Protection, April 6, 2006, p. 2 of 8, Section 5.b(4).

18
   Ibid, 5.d(2).

19
   Commission staff located in the Division of Trading and Markets; Division of Risk, Strategy, and Financial

Innovation; Division of Investment Management, Office of General Counsel; and the Office of the Chairman

are responsible for handling data collected and exchanged with FSOC, its member agencies, and OFR.

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                           March 25, 2013
Report No. 509
                                                  Page 8

                                 REDACTED PUBLIC VERSION
inventory of e-mails that are exchanged between the SEC information owners,
FSOC, member agencies, or OFR. Consequently, the e-mail portal cannot track
information that is collected or exchanged through other avenues such as CD’s,
thumb drives, meetings, conferences/seminars, etc. Additionally, when an SEC
information owner terminates their employment with the Commission, their e-
mails from the portal may need to be retrieved to identify FSOC, its member
agencies, and OFR sensitive or nonpublic information. This process could prove
to be time consuming. Using the secured email portal lacks sufficient controls
over information exchanged between the SEC and FSOC that is outside of the e-
mail system. Further, the secured e-mail system lacks efficient controls for
continuity purposes.

Furthermore, our audit found that information owners who receive sensitive or
nonpublic information (paper or electronic documents) from FSOC, its member
agencies, or OFR, are not marking the documents in accordance with II 24­
04.02.01 (01.0), or in a timely manner. Ensuring documents are properly marked
when initially received increases the likelihood that the confidentiality of the
information collected and exchanged with the various parties is being maintained
and handled appropriately.

OIG determined that the Commission’s current practices limit its ability to ensure
information owners readily track and identify the universe of sensitive and non-
public information the SEC receives and exchanges with FSOC, its member
agencies or OFR because the SEC does not have a primary or alternate POC
and relies on its secured email portal to track exchanged or collected information,
they cannot readily identify its universe of information that is not transmitted via
email and assure paper documents are appropriately “marked” in a timely
manner. Therefore, the SEC’s ability to readily identify information owners (e.g.,
providing or receiving party), ensure documents are properly marked and
handled, or are authorized for release and are easily identified for third party
SEC requests for information, cannot be assured.

We further found the SEC is collecting information using the “Reporting Form for
Investment Advisers to Private Funds and Certain Commodity Pool Operators
and Commodity Trading Advisors” (Form PF). The SEC adopted this form on
October 31, 2011 to provide information to FSOC to assist in assessing systemic
risk in the U.S. financial system. The Division of Investment Management (IM)
uses the Form PF to collect reporting information from investment advisers to
private funds and certain commodity pool operators and commodity trading
advisors. Information collected using the Form PF is provided to OFR, on behalf
of FSOC. IM’s staff informed OIG it has worked with OFR to establish Form PF
principles for data sharing that governs OFR’s use of the information.



SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                        Page 9

                          REDACTED PUBLIC VERSION
Though the Commission has information owners, primary POCs should be
appointed to ensure the SEC has designated staff who provide oversight for
information the SEC receives and exchanges with FSOC, its member agencies,
or OFR. Further, the SEC should develop a viable system such as a centralized
repository, to track the universe of information it receives and exchanges with the
parties, to include information that is contained in secured emails, CD’s, thumb
drives, external drives, and at meetings, conferences, or seminars. The primary
POCs should further ensure information owners appropriately “mark” the
documents in a timely manner.

Adopting these changes will better align the SEC with the MOU’s requirements to
be able to track information it receives and exchanges with FSOC. Further, it will
align the SEC with II 24-04.02.01 (01.0), which requires an information owner is
assigned to receive information from third parties.

Appointing POCs and developing a viable system or protocol are crucial to the
SEC’s ability to efficiently identify all information that has been requested,
provided, or received to/from the parties, as well as the source/owners of the
information will result in the SEC having better internal controls over these areas.

       Recommendation 2:

       The Office of the Chairman in coordination with the Office of Information
       Technology should assign points of contact to serve as information
       owners for sensitive and nonpublic documents provided to, or received
       from the Financial Stability Oversight Council (FSOC), the Office of
       Financial Research or FSOC’s member agencies.

       Management Comments. The Chairman’s office concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased the Chairman’s office concurred with this
       recommendation. OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to OIG that supports it has been fully implemented.

       Recommendation 3:

       The Office of the Chairman in coordination with the Office of Information
       Technology should ensure a system or protocols are developed to identify
       and track all sensitive and nonpublic information provided to, or received
       from the Financial Stability Oversight Council (FSOC), the Office of
       Financial Research or FSOC’s member agencies. This system should
       track information owner’s name, date information is received/sent, who the

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                       Page 10

                          REDACTED PUBLIC VERSION
       information is sent to/received from, and media used (e.g., CDs, thumb
       drives, etc.).

       Management Comments. The Chairman’s office concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased the Chairman’s office concurred with this
       recommendation. OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to OIG that supports it has been fully implemented.

       Recommendation 4:

       The Office of the Chairman in coordination with the Office of Information
       Technology should ensure documented procedures are developed to
       assure individuals that serve as information owners for sensitive and non-
       public information provided to, or received from the Financial Stability
       Oversight Council (FSOC), the Office of Financial Research or FSOC’s
       member agencies, properly mark the documents (or files containing
       documents) according to the sensitivity level.

       Management Comments. The Chairman’s office concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased the Chairman’s office concurred with this
       recommendation. OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to OIG that supports it has been fully implemented.


Finding 3: New Contractors Are Not Provided
Training on Handling Sensitive and Nonpublic
Information in a Timely Manner
       Newly assigned contractors working with FSOC, its member
       agencies, and the OFR information are not promptly and
       adequately trained on how to handle sensitive or nonpublic
       information. As a result, a contractor could unintentionally
       mishandle or disclose nonpublic information the SEC
       collects and exchanges with the parties.

The SEC employs contractors who could potentially work with nonpublic

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                       Page 11

                          REDACTED PUBLIC VERSION
information FSOC, its member agencies, and OFR. 20 Contractors have the
same security controls requirements over sensitive and nonpublic information
that applies to SEC employees. New contractors are required to read and sign
an NDA before receiving approval to work at the SEC. However, they are not
required to immediately complete the Security Awareness training which covers
OIT’s “Rules of the Road,” and “Prohibited Practices Concerning Non-Public
Information,” or sign a compliance statement acknowledging they understand
and will comply with the SEC’s “Rules of the Road.” According to OIT, after
signing the NDA, the contractor has an understanding of how to properly handle
nonpublic information and believes they are then aware of non-disclosure
requirements covered in the NDA. 21

The NDA includes language stating the contractor agrees “not to disclose to any
unauthorized person any confidential or nonpublic documents or information.”22
While the NDA defines confidential and nonpublic information and informs the
contractor they should not disclose “confidential or non-public information in any
form, including documents, electronic mail, computer files, conversations, and
audio or video recordings,” it does not include the SEC’s requirements for
handling confidential or nonpublic information. Further, the NDA does not
include language that describes what the SEC defines as prohibited practices
concerning nonpublic information. For example, a prohibited practice concerning
nonpublic information that is outlined in the Rules of the Road, Rule #7 states,

         DO NOT transmit non-public information or sensitive data through
         the Internet or via e-mail, unless you have encrypted it using the
         SEC’s approved encryption software. DO NOT store or transmit
         non-public information or sensitive data on SEC IT resources
         without proper protection/encryption. 23

New SEC employees are required to complete on-line Security Awareness
training within 30 days (15 days for interns) after receiving their user account.
Further, new SEC employees receive training on handling sensitive, nonpublic
information during the new employees’ orientation. This training informs new
employees that sensitive/nonpublic information cannot be transmitted external to
the SEC unless it is encrypted. In addition, new employees are given a copy of
the Rules of the Road to read and sign indicating they will adhere to the policy.

Unlike employees, new contractors also are not required to take the on-line
Security Awareness training on how to handle sensitive or nonpublic information
for up to 30 days after they are approved to work at the SEC and have received a

20
   The SEC uses contractors to support the agency in achieving its mission.

21
   The Rules of the Road are available to all network users on the SEC Insider intranet.

22
   Employee non-disclosure agreement, Attachment J-2, Section C. 

23
   SEC’s Rules of the Road, Rule #7.

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                           March 25, 2013
Report No. 509
                                                 Page 12

                                 REDACTED PUBLIC VERSION
network user account. This time gap increases the likelihood the contractor
could unintentionally mishandle or disclose sensitive/nonpublic information.

Although the Office of Acquisitions (OA) asserts they provided training to
Contracting Officer’s Representatives regarding the requirement to have new
contractors read and sign the Rules of the Road before starting work at the SEC,
we were not provided evidence this process has started. OIT informed us they
are working with OA regarding this matter.

OIG determined that upon being approved to work on a SEC contract,
contractors should be given a copy of the Rules of the Road to read and sign
indicating they will adhere to this policy which covers handling sensitive and
nonpublic information.

       Recommendation 5:

       The Office of Acquisitions, in coordination with the Office of Information
       Technology should ensure that new contractors with the Commission are
       given a copy of the “Rules of the Road” to read and sign indicating they
       will adhere to the policy before they are given access to the agency’s
       systems.

       Management Comments. The Chairman’s office concurred with this
       recommendation. See Appendix V for management’s full comments.

       OIG Analysis. We are pleased the Chairman’s office concurred with this
       recommendation. OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to OIG that supports it has been fully implemented.




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR    March 25, 2013
Report No. 509
                                       Page 13

                          REDACTED PUBLIC VERSION
                    Abbreviations and Definitions


          CIGFO              Council of Inspectors General on Financial
                             Oversight

          Dodd-Frank         Dodd-Frank Wall Street Reform and Consumer
          Act                Protection Act
          FDIC               Federal Deposit Insurance Corporation
          Form PF            Reporting Form for Investment Advisers to Private
                             Funds and Certain Commodity Pool Operators and
                             Commodity Trading Advisors
          FSOC               Financial Stability Oversight Council

          IG                 Inspector General
          IM                 Office of Investment Management
          MOU                Memorandum of Understanding “Regarding the
                             Treatment of Non-public Information Shared Among
                             Parties Pursuant to the Dodd-Frank Wall Street
                             Reform and Consumer Protection Act”
          NDA                Non-Disclosure Agreement
          NIST               National Institute of Standards and Technology
          OA                 Office of Acquisitions
          OFR                Office of Financial Research
          OIG                Office of Inspector General
          OIT                Office of Information Technology
          OWA                Outlook Web Access
          Parties            Consist of the Financial Stability Oversight Council
                             and the Office of Financial Research
          POC                Point of Contact
          SEC or             U.S. Securities and Exchange Commission
          Commission
          SEC                Groups identified in certain offices and divisions
          Information        who serve as Financial Stability Oversight Council
          Owners             and the Office of Financial Research information
                             owners.
          SEC Staff          SEC employees, detailees, and interns
          U.S.               United States
          VPN                Virtual Private Network
          Working Group      CIGFO Working Group



SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                       Page 14

                          REDACTED PUBLIC VERSION
                                                                       Appendix II


                      Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence we obtained provides a reasonable basis for our
findings and conclusions, based on our audit objective.

Scope. We conducted our fieldwork from February 2012 to September 2012,
and reviewed the SEC’s management and internal controls over sensitive and
nonpublic information collected by and exchanged with the FSOC, its member
agencies, and the OFR. The scope of this audit included a survey of the SEC’s
controls and protocols the SEC applied to safeguard from unauthorized
disclosure and track sensitive and nonpublic information that was collected by or
exchanged with FSOC, its member agencies, and the OFR. The scope of the
audit did not include an inquiry into whether there was any unauthorized
disclosure of confidential information.

Methodology. To meet the objective of examining the controls and protocols the
SEC employs to ensure that FSOC, its member agencies, and the sensitive and
nonpublic information, including deliberations, and decisions, were properly
safeguarded against unauthorized disclosure. We distributed a survey to and
conducted interviews with select personnel in the Office of the Chairman, Office
of General Counsel, Office of Ethics, OIT, Division of Trading and Markets, IM,
and the Division of Risk, Strategy, and Financial Innovation who had
responsibilities related to safeguarding sensitive and proprietary information
collected by and exchanged with the FSOC, its member agencies and the OFR.
In addition, we reviewed SEC’s regulations and policies and procedures related
to safeguarding sensitive and proprietary information. We also reviewed relevant
federal regulations, laws, and guidance.

Management Controls. We did not assess SEC’s management controls
because it did not pertain to the objectives of this audit. We reviewed existing
controls the Commission considered specific to the Working Group’s
Questionnaire. To thoroughly understand the Commission’s management
controls pertaining to its policies and procedures and methods of operation, we

SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                       Page 15

                          REDACTED PUBLIC VERSION
                                                                        Appendix II


relied on information the agency provided OIG as supporting documentation to
the questionnaire and during follow-up interviews we conducted with Commission
personnel.

Use of Computer-Processed Data. We did not assess the reliability of any
computer-processed data because it did not pertain to the objectives of this audit.
Further, we did not perform any tests on the general or application controls over
SEC’s automated systems because such tests were not within the scope of our
work. The information that was retrieved from these systems, as well as the
requested documentation provided to us, was sufficient, reliable, and adequate to
use in meeting our stated objectives.

Prior Audit Coverage

   •	 OIG report 2011 Annual FISMA Executive Summary Report, Report 

      No. 501, February 2, 2012. This report contained 13 

      recommendations to strengthen the SEC’s controls over

      information security.

   •	 OIG report Assessment of SEC’s Continuous Monitoring Program, 

      Report No. 497, dated August 11, 2011. This report contained 13

      recommendations to strengthen OIT’s continuous monitoring

      program.

   •	 OIG report Assessment of the SEC’s Privacy Program, Report No. 485,
      September 29, 2010. This report contained 20 recommendations to
      improve the Commission’s security posture for protecting Personally
      Identifiable Information.
   •	 OIG report Evaluation of the SEC Encryption Program, Report No. 476,
      March 26, 2010. This report contained three recommendations to improve
      the Commission’s encryption program.
   •	 OIG report Evaluation of the SEC Privacy Program, Report No. 475,
      March 26, 2010. This report contained one recommendation to improve
      the Commission’s privacy program.




SEC’s Controls Over Information Collected and Exchanged with FSOC/OFR   March 25, 2013
Report No. 509
                                       Page 16

                          REDACTED PUBLIC VERSION
                                                                     Appendix III


                                     Criteria

Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law
No. 111-203, July 21, 2010. Reformed the financial regulatory system, including
how financial regulatory agencies such as the SEC operate, and mandated that
the SEC undertake a significant number of studies and rulemakings, including
regulatory initiatives addressing derivatives; asset securitization; credit rating
agencies; hedge funds, private equity funds, and venture capital funds; municipal
securities; clearing agencies; and corporate governance and executive
compensation. Created CIGFO.

Memorandum of Understanding Regarding the Treatment of Non-public
Information Shared Among Parties Pursuant to the Dodd-Frank Wall Street
Reform and Consumer Protection Act, April 15, 2011. Sets forth the parties’
understanding with respect to the treatment of nonpublic information that is
obtained or shared among the parties in connection with or related to the
functions and activities of FSOC or OFR.

SECR 23-2a, Security-Safeguarding Non-Public Information, January 21,
2000. Establishes general policies and procedures for safeguarding nonpublic
information.

SECR 24-04-A01, Rules of the Road. Provides guidance on the handling and
safeguarding of nonpublic or sensitive information, including its transmission and
storage.

Implementing Instruction 24-04.02.01(01.0), Sensitive Data Protection, April
6, 2006. Provides a uniform process for defining SEC’s sensitive information for
the purpose of information technology security and management.

NIST Special Publication 800-53, Revision 3, Recommended Security
Controls for Federal Information Systems and Organizations. Provides
guidance related to the steps in the risk management framework that address
security control section.




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR    March 25, 2013
Report No. 509
                                       Page 17

                          REDACTED PUBLIC VERSION
                                                                      Appendix IV


                     List of Recommendations

Recommendation 1:

The Office of Information Technology should develop controls that prevent
remote users from saving files accessed using Outlook Web Access to public
computers.

Recommendation 2:

The Office of the Chairman in coordination with the Office of Information
Technology should assign points of contact to serve as information owners for
sensitive and nonpublic documents provided to, or received from the Financial
Stability Oversight Council (FSOC), the Office of Financial Research or FSOC’s
member agencies.

Recommendation 3:

The Office of the Chairman in coordination with the Office of Information
Technology should ensure a system or protocols are developed to identify and
track all sensitive and nonpublic information provided to, or received from the
Financial Stability Oversight Council (FSOC), the Office of Financial Research or
FSOC’s member agencies. This system should track information owner’s name,
date information is received/sent, who the information is sent to/received from,
and media used (e.g., CDs, thumb drives, etc.).

Recommendation 4:

The Office of the Chairman in coordination with the Office of Information
Technology should ensure documented procedures are developed to assure
individuals that serve as information owners for sensitive and non-public
information provided to, or received from the Financial Stability Oversight Council
(FSOC), the Office of Financial Research or FSOC’s member agencies, properly
mark the documents (or files containing documents) according to the sensitivity
level.

Recommendation 5:

The Office of Acquisitions, in coordination with the Office of Information
Technology should ensure that new contractors with the Commission are given a
copy of the “Rules of the Road” to read and sign indicating they will adhere to the
policy before they are given access to the agency’s systems.
SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR     March 25, 2013
Report No. 509
                                       Page 18

                          REDACTED PUBLIC VERSION
                                                                                                       Appendix V


                             Management Comments





                                        MEMORANDUM
                                             March 22, 2013



To:             Jacqueline Wilson, Assistant Inspector General for Audits, Office of Inspector General

From:           Erica Williams, Deputy Chief of Staff, Office of the Chairman ~· uJ~ 1(l~\v·--;j·\;.: J.,,.
                                                                                            ~
                Thomas A . Bayer, Chief Information Officer, Office of Information Technology \\ ~t'Jrol. '
                                                                                                       l~'"' '\
                                                                                                             I
                                                                     ~..J-et
                                                                                                                 1

                Vance Cathell, Director, Office of Acquisitions   0"'o-v'       I
                                                                               ~·
                                                                                             •   ,\,            \I




Subject:        Management Response, SEC's Controls Over Sensitive/Non-Public Information Collected
                and Exchanged With the Financial Stability Oversight Council and Office of Financial
                Research, Report No. 509



Thank you for the opportunity to comment on the recommendations in the report annotated above, as
we work together to protect the sensitive and non-public nature of information co llected by and
exchanged with the Financial Stability Oversight Council (FSOC) and Office of Financial Research (OFR).
The scope of the Office of Inspector General's audit included a survey of the SEC's controls and protocols
the SEC applied to safeguard from unauthorized disclosure and track sensitive and non-public
information that was collected by or exchanged with FSOC, its member agencies and the OFR. The
scope of the audit did not include an inquiry into whether there was any unauthorized disclosure of
confidential information. We appreciate the Office of Inspector General's insights on the SEC's controls
and protocols and are providing the official response from the Offices of the Chairman, Information
Technology, and Acquisitions.


Recommendation 1: "The Office of Information Technology should develop controls that prevent
remote users from saving files accessed using Outlook Web Access to public computers."

Management Response: The Office of Information Technology concurs and will evaluate blocking
attachments through Outlook Web Access (OWA) on public computers and educating users on the
difference between SEC-owned, private and public computers and t he respective security risks through
the annual Security Awareness Training



Recommendation 2: "The Office of the Chairman in coordination with the Office of Information
Technology should assign points of contact to serve as information owners for sensitive and nonpublic
documents provided to, or rece ived from the Financial Stability Oversight Council (FSOC), the Office of
Financial Research o r FSOC's member agencies."




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                                  March 25, 2013
Report No. 509
                                                    Page 19

                                  REDACTED PUBLIC VERSION
                                                                                             Appendix V




  Management Response: The Office of the Chairman concurs and will assign points of contact.



  Recommendation 3: "The Office of the Chairman In coordination with the Office of Information
  Technology should ensure a system is developed to identify and track all sensitive and nonpubllc
  information provided to, or received from the Financial Stability Oversight Council (FSOC), the Office of
  Financial Research or FSOC's member agencies. This system should track information owner's name,
  date information Is received/sent, who the information is sent to/received from, and media used (e.g.,
  CDs, thumb drives, etc.)."

  Management Response: The Office of the Chairman concurs. The SEC FSOC point of contact will work
  with the FSOC OFR member agencies to come up .with a consensus on data tracking when exchanging
  data within the FSOC OFR member agencies. The Office of the Chairman will e nsure a system for
  tracking sensitive FSOC-related information is established consistent with the signed Memorandum of
  Understanding among member agencies and consensus procedures.



  Recommendation 4 : "The Office of the Chairman In coordination with the Office of Information
  Technology should ensure documented procedures are developed to assure individuals that serve as
  information owners for sensitive and non-public information provided to, or received from the Financial
  Stability Oversight Council (FSOC), the Office of Financial Research or FSOC's member agencies, properly
  mark the documents (or files containing documents) according to the sensitivity level."

  Management Response: The Office of the Chairman concurs. The SEC FSOC point of contact will work
  with the FSOC OFR member agencies to come up with a consensus on marking flies or documents. OIT
  will assist the FSOC point of contact in developing internal procedures. The FSOC Data Committee
  Working Group is engaged in discussions concerning the proper labeling and handling of FSOC data.



  Recommendation 5: "The Office of Acquisitions, In coordination with the Office of Information
  Technology should ensure that new contractors with the Commission are given a copy of the "Rules of
  the Road" to read and sign indicating they will adhere to the policy before they are given access to the
  agency's systems."

  Management Response: The Office of Acquisitions concurs. The Office of Acquisitions Is committed to
  supporting the Office of Information Technology in improving controls over SEC information. We will
  coordinate with OIT to Implement your recommendation.




SEC’s Controls Over Information Collected/Exchanged with FSOC/OFR                           March 25, 2013
Report No. 509
                                                Page 20

                                REDACTED PUBLIC VERSION
                     Audit Requests and Ideas


The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
